1982 N. State Road 7
Margate, FL 33063
(954)-745-2400

IMPORTANT CREDIT CARD DISCLOSURES
The following disclosure represents important details concerning your credit card. The information about costs of the card are
accurate as of _______________. You can contact us toll free at (800) 230-0200 or at the address above to inquire if any
changes occurred since the effective date.
INTEREST RATES and INTEREST CHARGES:
VISA PLATINUM
Annual Percentage Rate
(APR) for Purchases, Cash
Advances, & Balance
Transfers

VISA SECURED

_______% Introductory APR for first

16.90%

____________ monthly billing cycles. After that,
your Standard APR will be

This APR will vary with the market
based on the Prime Rate.

8.90%, 10.90%, 13.90%,
15.90%, or 18.90%
depending on your creditworthiness. This APR will
vary with the market based on the Prime Rate.

Paying Interest

Your due date is at least 21 days after we mail your billing statement. We will not charge
you interest on purchases if you pay your entire new purchase balance by the due date
each month. We will begin charging interest on cash advances and balance transfers on
the date the cash advance or balance transfer is posted to your account.

Minimum Interest Charge

If you are charged interest, the charge will be no less than $1.50.

For Credit Card Tips from
the Consumer Financial
Protection Bureau

To learn more about factors to consider when applying for or using a credit card, visit the
website of the Consumer Financial Protection Bureau at
http://www.consumerfinance.gov/learnmore

FEES:
Fees to Open or Maintain
your Account

• Application Processing Fee:
• Annual Fee:

NOTICE (Applies to Visa Secured only): Maintenance fees may be assessed before you
begin using your card and will reduce the amount of credit you initially have available. For
example, if you are assigned the minimum credit limit of $500.00, and if your
maintenance fees are $100.00, your initial available credit will be only $400.00.
None
Visa Secured: $50.00 (charged at account opening and annually); Visa Platinum: None

Transaction Fees
• Balance Transfer:
• Cash Advance:
• Foreign Transaction:
Penalty Fees
• Late Payment:
• Over-the-Credit Limit:
• Returned Payment:

1% of the amount of each transfer (minimum:
$10.00, maximum: $300.00)
1% of the amount of each transfer (minimum:
$10.00, maximum: $300.00)
3% of each transaction in U.S. dollars.

None
None
3% of each transaction in U.S. dollars.

If your payment is more than 2 days late, up to $25.00 for the first offense and up to
$35.00 each if 2 or more offenses occur within 6 months.
None
Up to $25.00 if your payment is returned for any reason.

How We Will Calculate Your Balance: We use a method called "average daily balance (including current purchases)."
Loss of Introductory Rate: Visa Platinum -There will be no loss of the Introductory APR during the first ____________
monthly billing cycles.
SEE NEXT PAGE for more important information about this account
9009 LASER FPDF FI16043 Rev 1-2021

page 1 of 2

COPYRIGHT 2009 Securian Financial Group, Inc. All rights reserved.

Variable Rate: The Annual Percentage Rate will change as the Prime Rate changes. It will be equal to the 'Prime Rate' as
published in the Wall Street Journal on June 30th each year plus a margin based on your creditworthiness. The rate will change
in July of each year if the Prime Rate changes.
Card Agreement: You will receive a Visa Credit Card Agreement/Disclosure with the Card. Please read the entire disclosure for
complete details regarding the terms of the account, including rates and fees which are subject to change. The
Agreement/Disclosure is also available on our website at www.wefloridafinancial.com or call us at 954-745-2400 option 4 for
complete details.
Balance Transfer Requests: You may request to transfer balances from your higher interest rate credit or store cards by
contacting us at 954-745-2400 or 800-230-0200, option 4. You may transfer any amount; however, the total amount transferred,
including any fees, must be less than your available credit limit. You should not transfer the amount of any disputed purchases
or other charge. You may lose your dispute rights if you do. You may not transfer balances from other accounts issued by We
Florida Financial. We process multiple balance transfers in the order requested. If a balance transfer will exceed the credit
available, you authorize us to process any balance transfer less than the amount requested up to the amount of your credit
limit. Please allow up to two weeks for balance transfers to be completed. Accordingly, you should continue to make all required
payments until you confirm balance transfers were made. Balance transfers are processed by mailing a check to the card
issuer for payment. Interest begins to accrue on balance transfers on the date a check is issued for payment.

9009 LASER FPDF FI16043 Rev 1-2021

page 2 of 2

COPYRIGHT 2009 Securian Financial Group, Inc. All rights reserved.

